                                                    SENSITIVE BUT UNCLASSIFIED



    A
                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General


                                                 Office of Inspections

                                                    Inspection of
                                          the U.S. Mission to International
                                              Organizations in Vienna

                                            Report Number ISP-I-12-17A, March 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                               Table of Contents
Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        7
  Staffing                                               7
  Records Management                                     8
  Reporting, Analysis, and Advocacy                      9
  Foreign Assistance                                    11
  Public Affairs                                        11
Resource Management                                     14
Management Controls                                     15
List of Recommendations                                 16
List of Informal Recommendations                        17
Principal Officials                                     19
Abbreviations                                           20




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


Key Judgments
    •     The Ambassador and deputy chief of mission (DCM) lead a motivated staff that merits
          commendation for a string of foreign policy successes that have advanced high-priority
          issues, such as nuclear nonproliferation and nuclear safety.

    •     The U.S. Mission to International Organizations in Vienna’s (UNVIE) funding for travel
          and other program activities is insufficient to advance U.S. objectives effectively in the
          eight international organizations in Vienna at which it represents the United States.

    •     The Ambassador and DCM have built a cohesive, productive, high-morale team, drawn
          from many agencies. First- and second-tour officers and specialists are well integrated in
          this team but would benefit from a more defined career development program.

    •     In 2012, UNVIE should determine, after the completion of staff realignments, whether it
          could realize cost savings and gain greater flexibility by reorganizing its UN affairs and
          arms control sections.

    •     The public affairs section performs well. Its outreach is global and includes using social
          media in Farsi and engaging in speaking tours by the Ambassador to Southeast Asia and
          Latin America.

    •     Most UNVIE staff members are satisfied with the delivery of services by the tri-
          mission’s joint management office (JMO). Greater use of electronic tracking systems will
          increase satisfaction.


       Management services are evaluated in the OIG report, Inspection of Tri-Mission Vienna
Joint Management Office (March 2012).

        All findings and recommendations in this report are based on conditions observed during
the on-site review and the standards and policies then in effect. The report does not comment at
length on areas where OIG did not identify problems that need to be corrected.

       The inspection took place in Washington, DC, between September 12 and 29, 2011, and
in Vienna, Austria, between October 3 and November 17, 2011. The members of the team were
(b) (6)




                                             1
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
       UNVIE represents the United States in eight major international organizations that
Austria hosts. These include, most notably, the International Atomic Energy Agency (IAEA), the
UN Office on Drugs and Crime (UNODC), and the Preparatory Commission for the
Comprehensive Nuclear Test Ban Treaty Organization (CTBTO). A fourth major entity is the
Wassenaar Arrangement, a nontreaty agreement covering export licensing practices for military
and dual use items.

        UNVIE is centrally engaged in U.S. efforts worldwide to promote peace and security,
develop safe and secure uses of nuclear energy, and bolster the rule of law. UNVIE strives to
build global consensus on conventional and nuclear disarmament, counterterrorism, rule of law,
anticorruption, counterpiracy, border security, and trafficking in persons. It is the conduit for
more than $250 million in U.S. contributions to Vienna's international organizations.

         UNVIE manages high-profile issues that are technical and politically complex. The key
issues it focuses on include monitoring and reporting on Iranian and Syrian nuclear capabilities;
promoting implementation of the Nuclear Nonproliferation Treaty; and tracking implementation
of nuclear safety measures, such as during and after the nuclear plant accident in Fukushima,
Japan. UNVIE also is engaged in the United Nation’s recently increased activism to mitigate
illicit narcotics trade from Afghanistan and elsewhere. These issues often require coordination
with U.S. missions in New York, Geneva, and elsewhere.

       UNVIE is a relatively lean operation of 38 Americans and 11 locally employed (LE) staff
members, with a $2.5 million budget, from multiple bureaus and agencies, covering policy and
program operations. Management expenses for UNVIE are included in the budget for the tri-
mission’s JMO. The Bureau of International Organization Affairs; the Bureau of International
Security and Nonproliferation; the Bureau of Arms Control, Verification, and Compliance; the
Bureau for International Narcotics and Law Enforcement Affairs; and the Office of the
Coordinator for Counterterrorism all contribute funding to UNVIE activities. U.S. technical
experts working in Washington and on extended visits to Vienna supplement UNVIE’s staff.
Many of the experts have decades of experience, providing invaluable continuity to the mission.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The leadership of UNVIE has mastered highly complex subject matter and uses that
mastery, along with its strong diplomatic skills, to achieve major successes for the United States.
Much of its work—from nuclear nonproliferation to the fight against terrorism and crime—
occurs under the microscope of daily attention from the most senior reaches of the U.S.
Government and in the spotlight of the global media. Furthermore, the IAEA in Vienna has
become Iran’s preferred forum for attempting to attract nonaligned and other countries to its
causes. The Ambassador, DCM, and their team have a record of stunning success in this
challenging milieu.

Examples abound. The UNVIE team, in concert with other delegations, has
   • won the establishment of an international nuclear fuel bank that enables nonnuclear
      countries to access nuclear materials for peaceful uses, without having to develop
      enrichment and reprocessing capabilities themselves;
   • coordinated with IAEA officials to rally assistance during the accident at the Fukushima
      nuclear plant, while sharing U.S. expertise on nuclear safety;
   • defeated a resolution that would have undermined progress on nonproliferation in the
      Middle East and managed to keep it off the agenda for the following year;
   • succeeded in obtaining passage of resolutions finding Iran in noncompliance with its
      IAEA obligations, casting doubt on Iran’s assertions that its nuclear program was
      peaceful, and leading to UN Security Council sanctions against Iran;
   • obtained passage of the first-ever resolution exposing Syria’s noncompliance with IAEA
      nuclear reporting requirements;
   • continued to support IAEA efforts to implement verification of Iran’s and Syria’s nuclear
      programs;
   • persuaded key allies among IAEA members to increase the IAEA’s budget;
   • strengthened international nuclear nonproliferation norms and increased the security and
      safety of nuclear energy, while advancing peaceful uses of nuclear technology to address
      humanitarian needs in health, food production, and water resource management; and
   • provided key support to the nuclear test verification effort, including U.S. funding of a
      hydroacoustic station that will significantly enhance monitoring and verification of
      nuclear tests worldwide.

        As a result of these accomplishments, the United States has improved the safety and
security of nuclear materials across the globe, while strengthening deterrence, detection, and
verification regimes. These issues are first-tier matters. When UNVIE, in conjunction with other
delegations, secured acceptance of the international fuel bank, a top priority on the
administration’s agenda, the President sent the Ambassador a warm letter of congratulations for
the UNVIE team.

       The Ambassador and DCM have earned the respect and trust of counterparts in foreign
delegations and the international staff in the eight international organizations in Vienna.
(b) (5)




                                           3
                              SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

(b) (5)


                                                                          One observer described
the Ambassador as among the best he has seen in 30 years at UNVIE.

         Both the Ambassador and DCM possess formidable public affairs experience. Given the
worldwide press attention trained on the Vienna International Center, their media work directly
increases respect and support for the United States. For example, the DCM and UNVIE’s public
affairs section conceived an effective way to replicate their messaging to audiences in countries
with influence on nuclear and arms control issues. As a result, the Ambassador has conducted
well-received speaking tours to Southeast Asia, Latin America, and London, during which he has
explained complex multilateral issues and garnered support for U.S. objectives.

       UNVIE’s leadership is no less effective in managing relations with a diverse set of
policymakers in Washington. Officials from the White House, the Department of State
(Department), and other agencies commended the Ambassador and DCM for their leadership,
management, and substantive skills.

        Multiple bureaus of the Department provide funding for UNVIE operations and for staff
positions in the mission. In addition, other agencies contribute personnel and certain funding.
UNVIE is part of the Bureau of International Organization Affairs, but it conducts its intense
pace of policy dialogue with the National Security staff more than with any other bureau or
agency. Although UNVIE has recorded many policy accomplishments, and partly because of the
nature of multisource funding, UNVIE’s program budget has been unpredictable and insufficient
to advance U.S. objectives at a level that would be commensurate with the importance of the
national security issues the mission handles.

        For example, overall U.S. funding contributions in 2011 to the IAEA alone—in support
of IAEA’s work on antiproliferation, nuclear safety and security, and the peaceful use of nuclear
energy—was more than $190 million and came from a variety of U.S. Government agencies,
underscoring the vital role the agency plays in these fields. Yet, UNVIE staff lack travel funds to
attend relevant IAEA and other meetings related to UNVIE’s responsibilities around the world,
at which discussions take place on topics in which the United States has important stakes. As
effective as they are, UNVIE staff would be even more effective if they had adequate
representation funding to support their engagement with foreign missions and international
organizations in Vienna and in other capitals, particularly with the large number of delegations
skeptical of U.S. objectives in nuclear nonproliferation and other subject areas.

         UNVIE has been modest in its formal requests; for example, the current Mission
Strategic and Resource Plan (MSRP) does not include a request for increased representation and
travel funds. UNVIE leadership should revise the MSRP, generate formal cables, and meet with
senior Department officials to focus attention on the mission’s need for additional resources.

          Informal Recommendation 1: The U.S. Mission to International Organizations in
          Vienna should provide a justification to the Bureau of International Organization Affairs,
          the Bureau of International Security and Nonproliferation, and other bureaus for the
          mission to receive increased budgetary resources annually, including increased
          representation and travel funds.
                                             4
                                SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        Inside the UNVIE offices, the pace is fast, the atmosphere intense, and the workload
heavy—especially during meetings of the IAEA and other international organizations and the
mission’s frequent, high-level visits. Interagency collaboration and individual and team
achievement are both expected and publicly praised. Morale at UNVIE is very high, and the
scores on leadership, work environment, and quality-of-life measures were among the highest in
the 92 posts that OIG has recently inspected. Positive attitudes derive partly from the compelling
nature of UNVIE’s work and partly from the motivating leadership and emphasis placed on
morale by the Ambassador and DCM. (b) (5)

                                          The Ambassador and DCM demonstrate full respect
for Equal Employment Opportunity principles.

       UNVIE’s pace of work makes it difficult for its leaders to find time for strategic
planning. The MSRP tracks, guides, and clearly explains mission objectives, but a number of
realignments would rationalize the workload.

        The Ambassador and DCM overlap their roles more than is typical in bilateral missions,
often attending the same outside meetings so both can be equally prepared to address complex,
technical IAEA issues with senior delegates of other countries and senior IAEA officials. This
approach has contributed to many of UNVIE’s successes by giving each of them a command of
the details on issues and developments in discussion with their counterpart senior officials.
(b) (5)



        The current Ambassador is leaving shortly to take on another senior position. When the
current DCM becomes chargé, the chief of the IAEA section will serve as acting DCM. Her
expertise with IAEA issues should allow her to cement relations with the chief interlocutors at
the IAEA. When a new ambassador arrives, the IAEA section chief should be able to sustain
those relationships and take over some of the senior contact work previously performed by the
DCM. This shift, in turn, will allow the DCM to focus more on the non-IAEA side of UNVIE’s
portfolio, while also focusing more attention on internal supervision. The Ambassador and DCM
agreed with the inspectors and are beginning to make the needed adjustments.

        Some front office taskings are addressed to a group of officers, making it unclear which
unit or person has responsibility for action. Officers work through this group tasking collegially
to determine among themselves who will take the lead, but time is wasted in the process. Clearer
taskings would speed workflow and reduce confusion. The inspectors discussed this observation
with the DCM, who agreed to clarify his taskings in the future.

Career Development Program for First- and Second-Tour Officers

        The career development program for first- and second-tour officers and specialists needs
attention. It is centered at Embassy Vienna and does not provide the full range of opportunities
that would constitute a comprehensive career development matrix. The Ambassador and DCM
acknowledge these shortcomings.

       First- and second-tour personnel at UNVIE are active in an informal association that
includes their counterparts at Embassy Vienna and the U.S. Mission to the Organization for
                                          5
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Security and Cooperation in Europe (USOSCE). Some employees in this larger group feel
confined to the duties of their sections and do not experience the full scope of Foreign Service
activities. Only rarely are opportunities available to participate in the wider work of each mission
or the other missions in Vienna. Although first- and second-tour officers and specialists from
some missions receive mentoring and guidance on a day-to-day basis from their direct
supervisors, others do not. All report that their careers would benefit from wider access to senior
officers.

       The Ambassador and DCM welcomed suggestions for fashioning an entry-level
development program that fulfills the Foreign Service Director General’s direction, transmitted
worldwide on November 22, 2010, as State 120467, to conduct robust mentoring and
professional development of entry-level Foreign Service employees. They pledged to collaborate
with the other missions to seek short-term opportunities for first- and second-tour personnel to
work in UNVIE’s sister missions.

Recommendation 1: The U.S. Mission to International Organizations in Vienna should
implement a plan to provide first- and second-tour officers and specialists with regular mentoring
sessions and well-defined opportunities to gain experience with multilateral relations, support
official visits, speak in public fora, produce written reports, and participate in representational
events. (Action: UNVIE)

        The UNVIE protocol assistant conducts the traditional scope of duties for this position
and reports to the Ambassador. Given the demands on the Ambassador’s time, it would be more
efficient for the Ambassador’s office management specialist to supervise the protocol assistant.
The Ambassador agreed.

       Informal Recommendation 2: The U.S. Mission to International Organizations in
       Vienna should work with the joint management office at Tri-Mission Vienna to change
       the supervision of the protocol assistant from the Ambassador to the Ambassador’s office
       management specialist.

        The mission maintains multiple databases on contacts. The protocol unit has one, as does
each section. These databases overlap, which is an unnecessary duplication of effort. Moreover,
not all databases are kept up to date. Most office management specialists in the mission do not
have access to the protocol unit’s database.

       Informal Recommendation 3: The U.S. Mission to International Organizations in
       Vienna should consolidate and update its mission contacts databases.




                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
         UNVIE works with a wide variety of UN specialized agencies and the other Vienna-
based international organizations, but its primary focus is nuclear nonproliferation and the IAEA.
The mission is divided into four substantive sections: IAEA, arms control, UN affairs, and public
affairs. This structure provides generally clear lines of responsibility and has allowed the mission
to function efficiently and effectively.

        The mission represents the United States in eight different international organizations and
arrangements. These include CTBTO, the Hague Code of Conduct (HCOC), the IAEA, the
International Narcotics Control Strategy Board, UNODC, the UN Commission on International
Trade Law, the UN Office of Outer Space Affairs (OOSA), and the Wassenaar Arrangement. In
recent years, as nuclear nonproliferation has become a higher U.S. Government priority,
UNVIE’s staffing levels have grown.

        UNVIE staffing is a mix that includes Department generalists and technical specialists
from other U.S. agencies. This mix works well, especially in the IAEA section. The mission has
recruited well-qualified and hardworking employees, who work as a team on some of the
government’s highest foreign policy priorities, including nuclear nonproliferation and Iran.

        Mission staff effectively support the Ambassador and DCM in their advocacy on areas
that are important to U.S. national security. These areas include advancing the concrete actions
of international agencies in activities, such as post-earthquake efforts to monitor and redress civil
nuclear safety problems following the Fukushima nuclear reactor accident and agreements with
IAEA on an initiative for peaceful uses of nuclear energy.

Staffing

        In late 2011, the mission filled a long-term gap in an office management specialist
position, allowing officers to spend more time on substantive work. The recent addition of a new
position and arrival of another new position in summer 2012, together with adjustments in
portfolios and improved administrative support, will help restore balanced workloads.

       Informal Recommendation 4: The U.S. Mission to International Organizations in
       Vienna should assess its workload, once ongoing staffing adjustments have been
       completed, and incorporate its determination about staffing needs into its next strategic
       planning request.

        In 2012, a Foreign Service position will return to the arms control section after the
incumbent, a Foreign Service officer, completes a secondment to the Secretariat of the
multilateral Wassenaar Arrangement. At the same time, the mission has proposed a realignment
of two positions. This realignment would involve downgrading the present arms control section
head position in 2013 from an FO-01 to an FO-03 position, while transferring that Bureau of
International Organization Affairs-funded position to the IAEA section. An F0-03 position now
in the IAEA section that is funded by the Bureau of Arms Control, Verification, and Compliance
would be transferred to the mission’s arms control section and upgraded to an FO-01 position.
However, action on this realignment has been pending with the Bureau of International
Organization Affairs.
                                                 7
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Recommendation 2: The Bureau of International Organization Affairs, in coordination with the
Bureau of Human Resources, should approve the U.S. Mission to International Organizations in
Vienna’s proposed change in grade and alignment of two positions in the mission’s International
Atomic Energy Agency and arms control sections. (Action: IO, in coordination with DGHR)

         The UN affairs and arms control sections have diverse portfolios and work with multiple
international organizations. Both sections are small, especially in comparison to the IAEA
section, and the front office does not give them as much attention as it gives the IAEA section.
The heads of these two sections are strong leaders and competent managers, but each section has
little awareness of the other’s activities. This stovepiping has not prevented the mission from
drawing upon all staff to meet workload spikes associated with high-level visits and major
international meetings. Depending on whether the CTBTO is stood up as an international
organization as a result of the treaty entering into force, and after the summer 2012 transfer
cycle, the mission will be in a position to evaluate whether the current benefits of having two
small, separate UN affairs and arms control sections remain valid.

       Informal Recommendation 5: The U.S. Mission to International Organizations in
       Vienna should assess in late 2012 whether its present organizational structure continues
       to serve the mission’s evolving needs.

Records Management

        Most mission employees are not implementing Department procedures for managing and
retiring records, as required by 5 FAM 414.5 b.(2), (6) and 5 FAH-4 H-113. Some office
management specialists are not familiar with procedures for retiring electronic records. UNVIE
employees are not sharing documents in shared electronic folders. In addition, UNVIE sections
are not organizing shared folders according to the Department’s Traffic Analysis by Geography
and Subject labeling system. Email messages that meet the definition of records in 5 FAM 443.2
are not archived. Failure to implement such procedures impedes the Department’s ability to
retrieve official documents of value to the conduct of foreign policy and to historians.

       The arms control section does not produce a large volume of front-channel reporting. It
does send a large number of emails, including record emails conveying export licensing
information from Wassenaar Arrangement member states. The section maintains a large volume
of Wassenaar-related paper files that are not necessary because the majority of the material is
accessible electronically. The paper files impede efficient use of space.

Recommendation 3: The U.S. Mission to International Organizations in Vienna should issue an
administrative notice requiring each section to establish, maintain, and annually retire official
records, including email messages that qualify as records, and implement a tracking system to
verify that employees are managing and retiring electronic records. (Action: UNVIE)

        The IAEA section produces a high volume of email messages, especially during the
IAEA General Conference and board meetings. Emails are sometimes backed up by front-
channel reporting, but much email reporting is not captured as record traffic. UNVIE makes little
use of the record email function of the State Messaging and Archive Retrieval Toolset software
system. Record email is designed to archive emails that should be preserved for the historical


                                          8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

record, such as those relating to schedules for visitors, ongoing steps taken in the implementation
of programs, and the exchange of views on policy-related matters.

Recommendation 4: The U.S. Mission to International Organizations in Vienna should
implement a system to promote employee compliance with mission guidance on using the State
Messaging and Archive Retrieval Toolset software system to archive email and other
correspondence. (Action: UNVIE)

Reporting, Analysis, and Advocacy

International Atomic Energy Agency Section

         The IAEA section has 17 technical, generalist, and support staff members drawn from the
Department of State, Department of Energy, Nuclear Regulatory Commission, and Brookhaven
National Laboratory. The section’s five areas of focus correspond to the organization of the
IAEA bureaucracy: safeguards (against nuclear proliferation), safety and security (of nuclear
facilities and materials), technical cooperation, peaceful nuclear applications, and budget and
management.

        Employees from other agencies are fully integrated into the IAEA section, but they also
report to their headquarters and provide necessary liaison among those agencies, the Department,
and the IAEA Secretariat. The section head helps set work requirements for other agency
employees and provides input for their performance evaluations. Interagency cooperation is
buttressed by memoranda of understanding between the Department and some of the other
agencies represented in the section, including Brookhaven National Laboratory. One section
deputy combines valuable experience across several U.S. agencies and has considerable
expertise in the area of nuclear safeguards. The overwhelming majority of the section’s
employees expressed satisfaction with the excellent section management, as did the OIG team.

        Section employees handle other specialized, nuclear energy-related entities, and they
support U.S. participation in the IAEA’s annual Board of Governors and General Conference
meetings. The section focuses heavily on nonproliferation in countries of concern, particularly
Iran and Syria. The section also works well on recruitment of and advocacy for the employment
of qualified Americans as technical staff members at the IAEA Secretariat.

         The IAEA section generates a large volume of classified and unclassified
communications—more than that of all the other sections combined. Much of the reporting
addresses sensitive issues related to Iran’s and Syria’s nuclear programs and is sent through
restricted channels. Washington agencies and offices gave UNVIE high marks across the board
for the timeliness and substance of its reporting. Following the Fukushima nuclear accident,
mission reporting on and support for IAEA activities related to nuclear safety won praise in
Washington, an assessment shared by the OIG team.

         Reporting on IAEA issues provides valuable analyses and recommendations that shape
Washington policymaking. The mission’s activist approach facilitates interagency
decisionmaking by framing decisions on policy and tactics. This approach is particularly evident
in its reports on expanding IAEA activities and budgets—key aspects of U.S. efforts to make the
IAEA more robust and effective. Previews and analyses of upcoming IAEA sessions were of
                                           9
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

excellent quality and relevance, especially with regard to Iran and the handling of the dynamics
within the Non-Aligned Movement. Mission reporting reveals a valuable array of contacts with
international organizations and other foreign missions.

        The IAEA section’s primary focus is the IAEA, but it continues to have unrelated
responsibilities for the Nuclear Suppliers Group, a multilateral grouping that monitors and
regulates the export of nuclear materials and technology. In 2012, the United States is to assume
the chairmanship of the Nuclear Suppliers Group and its subordinate, consultative group, which
will significantly increase workload. The mission will need to carefully monitor the allocation of
increased responsibilities among personnel handling IAEA activities and Nuclear Suppliers
Group activities. (b)(5)(b)(6)


                                                                                 Mission
management understands the need to prepare for the eventual transfer of Nuclear Suppliers
Group responsibilities to the arms control section.

       Informal Recommendation 6: The U.S. Mission to International Organizations in
       Vienna should phase in, over 3 years, the transfer of the multilateral Nuclear Suppliers
       Group responsibilities from the International Atomic Energy Agency section to its arms
       control section.

        In 2010, the United States announced its Peaceful Uses Initiative, pledging to contribute
$50 million over 5 years to help expand the ability of all states to use peaceful nuclear energy
and challenging the international community to match that amount by 2015. The initiative has
significantly increased the IAEA section’s workload. The nuclear security summit to be held in
March 2012 in Seoul will add to UNVIE’s reporting workload. The mission already is making
adjustments that will allow it to increase reporting on nuclear security and will be able to take
additional steps to balance the workload when the arms control section is augmented by a new
officer position in summer 2012. Enhanced cooperation among mission sections can assist in
expanded reporting.

       Informal Recommendation 7: The U.S. Mission to International Organizations in
       Vienna should expand its reporting on nuclear security issues.

Arms Control Section

         The Comprehensive Nuclear Test Ban Treaty is approaching its entry into force, pending
ratification by nine more states—among them, potentially, the United States. The section excels
at advocacy of U.S. objectives. Among other accomplishments, it brokered a multilateral deal on
funding an integrated field exercise necessary for the development of a treaty on-site inspection
regime.

        The section represents the United States in the multilateral Wassenaar Arrangement, as
well as in the Hague Code of Conduct. A local employee efficiently relays the prelaunch
notifications, which are required by the Hague Code of Conduct, by sending front-channel cables
to a narrow and specialized audience in Washington.


                                         10
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The section works efficiently, and staff rate the section head as a strong leader who
shares information and manages well. The OIG team agrees with this assessment. The section
head oversees $35 million yearly of U.S.-funded contributions to the CTBTO and Wassenaar
Arrangement.

United Nations Affairs Section

       Following a staffing gap in early 2011(b)(5)(b)(6)                  mission reporting on
counternarcotics, crime, and corruption has increased in volume and quality. Recent personnel
changes (b) (5)                        created opportunities for U.S. engagement with UNODC,
especially with respect to Central Asia and North Africa.

         The section chief and his deputy employ an inclusive management style. The deputy
merits praise for maintaining the productivity of the unit during a lengthy period in 2011, (b)(5)
(b)(5)(b)(6)                                                                                (b)(6)
                                                     . The section chief serves as the U.S.
representative on drug and crime issues and oversees $30 million per year of U.S.-funded
antidrug, anticrime, and counterterrorism projects.

       The Organization for Security and Cooperation in Europe covers many of the same
border security, organized crime, and drug issues as UNODC, but there has been little interaction
between UNVIE and USOSCE on these issues in Europe and Eurasia. The UN affairs section
would be better able to work with UNODC if it were informed about related Organization for
Security and Cooperation in Europe activities.

       Informal Recommendation 8: The U.S. Mission to International Organizations in
       Vienna should share information with the U.S. Mission to the Organization for Security
       and Cooperation in Europe on the activities of the UN Office on Drugs and Crime and the
       Organization for Security and Cooperation in Europe in the areas of crime, corruption,
       and drugs.

Foreign Assistance

         UNVIE does not control foreign assistance funds. The Bureau of International
Organization Affairs is responsible for the payments of U.S. assessments and contributions to
international organizations. The Bureau of International Narcotics and Law Enforcement Affairs
and the Office of the Coordinator for Counterterrorism provide project funding to UNODC. The
Bureau of International Security and Nonproliferation provides additional “voluntary
contributions” funds to the IAEA to promote U.S. priorities and funds for the U.S. assessed
contribution to the Wassenaar Arrangement. The Bureau of Arms Control, Verification, and
Compliance provides funding for the U.S. assessed contribution and additional voluntary
contributions to the CTBTO.

Public Affairs

        The small public affairs staff, led by a seasoned public affairs officer, sets the tone and
substance for UNVIE outreach on mission strategic themes, both in Vienna and to selected
influential audiences around the world. The Ambassador and DCM fully support public affairs
efforts and frequently give media interviews and backgrounders. The public affairs officer has
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

developed effective speaking tours for the Ambassador in London, Southeast Asia, and Latin
America, where he has discussed contentious IAEA issues in public and with senior government
officials who exert influence over decisions made in UN fora. The Ambassador’s travel also
broadly demonstrates U.S. leadership in international organizations. The section coordinates
these trips with appropriate Department bureaus and embassies in Southeast Asia and Latin
America.

        The section spends the greater part of its time briefing the media and preparing the
Ambassador and other senior officers to do the same. It also works closely with the U.S.
Missions to the United Nations in New York and Geneva on public affairs issues of common
interest.

        The public affairs officer is UNVIE’s interlocutor with the 60-plus-member, international
press corps in Vienna. She also works with counterpart public affairs officers of the eight
international organizations in Vienna and consults closely with the U.S. Missions to the United
Nations in New York and Geneva.

         In January 2011, a media-savvy officer arrived to fill a new position as assistant public
affairs officer. He writes the Ambassador’s speeches, organizes briefing books, and serves as
control officer for congressional delegations and senior U.S visitors, among other duties. He has
been particularly effective in revitalizing and marketing the mission’s social media platforms.
His arrival has freed the public affairs officer to develop long-term, strategic planning.

        One of the assistant public affairs officer’s initiatives was to use the Department’s
electronic Virtual Student Foreign Service program 1 to explain nonproliferation issues to Farsi-
speaking audiences worldwide. He also developed strategic outreach to global, Farsi-speaking
social media venues and selected an intern to manage the project at no cost to the mission.

        Traditionally, the Bureau of Educational and Cultural Affairs allots most International
Visitor Leadership Program (IVLP) grants to geographic bureaus, which in turn allot the grants
to enable embassies to bring individuals to the United States. The Bureau of Educational and
Cultural Affairs generally allots only four grants annually to the Bureau of International
Organizations, which then assigns them to individual, multilateral missions abroad, based on the
quality of nominations it receives. The Bureau of International Organizations has done an
excellent job in using the winter incentive programs to increase the number of grants from four
to six or eight grants annually.

        UNVIE staff have contacts with many strong candidates for IVLP grants. Based on the
limited grants available to the Bureau of International Organizations and the competition for
grants from other multilateral missions, it is unlikely that UNVIE could secure the number of
grants it could usefully program. The Bureau of International Organizations assigned one IVLP
grant to UNVIE, which will use it in FY 2012. There is room for UNVIE to increase its use of
this program to expose influential contacts to a spectrum of U.S. experts, both private and public,
who shape U.S. policies.



1
    The Virtual Student Foreign Service is an “eInternship” program that uses the Web to connect U.S. college
    students to overseas U.S. embassies in order to engage in digital public diplomacy.
                                                12
                                    SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        The Department’s multilateral missions deal with some of the most important national
security issues facing the United States. They each work with potential grantees representing
countries whose officials need this exposure to the United States and its foreign and security
policy experts. The IVLP grants can provide these opportunities.

       Informal Recommendation 9: The U.S. Mission to International Organizations in
       Vienna should make a case to the Bureau of Educational and Cultural Affairs and the
       Bureau of International Organization Affairs to double the allotment of International
       Visitor Leadership Program grants available to multilateral missions.

        The IVLP is expensive for the Department. U.S. embassies and multilateral missions
abroad often use the alternative, no-cost Voluntary Visitor program to supplement IVLP grants.
Under the Voluntary Visitor program, U.S. agencies organize a program for the visitor, but the
visitor pays his or her travel and per diem costs. UNVIE has not used the Voluntary Visitor
program.

       Informal Recommendation 10: The U.S. Mission to International Organizations in
       Vienna should use the Voluntary Visitor program to supplement its International Visitor
       Leadership Program.

        The UNVIE public affairs section has had minimal contact with the other two U.S.
diplomatic missions in Vienna: Embassy Vienna and USOSCE. Communication among the three
missions is mainly an exchange of information about programming that addresses similar
audiences. Developing better cooperation among the three staffs may offer cost savings and
create synergies that would enhance each mission’s public diplomacy efforts. Expanded use of
social media in particular areas would benefit from tri-mission collaboration.

       Informal Recommendation 11: The U.S. Mission to International Organizations in
       Vienna should consult at least quarterly with Embassy Vienna and the U.S. Mission to
       the Organization for Security and Cooperation in Europe to identify areas where
       collaboration, including the use and marketing of social media, could expand the reach of
       U.S. public diplomacy.




                                         13
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
                                                            Locally                   Total
                          U.S. Direct-       U.S. Local-
         Agency                                            Employed   Total Staff    Funding
                           Hire Staff        Hire Staff
                                                             Staff                   FY 2011

Department of State                 32                 1          6           39
  Diplomatic and
                                    30                 1          5           36    $2,152,200
  Consular Programs
  UNVIE
                                         0             0          0             0      $41,600
  Representation
  Public Affairs                         2             0          1             3     $173,700
  Public Affairs
                                         0             0          0             0       $3,900
  Representation
Arms Control                             0             0          0             0     $146,565
Department of Energy                     4             0          4             8         N/A
  Nuclear Regulatory
                                         2             0          0             2         N/A
  Commission
Totals                              38                 1         10           49    $2,517,965


      The tri-mission’s JMO provides management support services for Embassy Vienna.
Management issues are discussed in the OIG report, Inspection of the Tri-Mission Vienna Joint
Management Office (March 2012).

        Budget and accounting issues are perplexing to UNVIE officers because they did not
consult fully with the JMO financial management center. Nevertheless, UNVIE employees
praise the financial management center for support and timely responses. The Consolidated
Overseas Accountability Support Toolbox is not installed on certain officers’ desktop computers
to help track budgets. Additionally, it appears that UNVIE employees are not familiar with the
LE staff who provide the bulk of on-site support.

         Informal Recommendation 12: The U.S. Mission to International Organizations in
         Vienna should have the Consolidated Overseas Accountability Support Toolbox installed
         on the computers of those officers with budget and accounting responsibilities.

         Informal Recommendation 13: The U.S. Mission to International Organizations in
         Vienna should work with Embassy Vienna to introduce the embassy’s locally employed
         staff with responsibility for management support to the officers of the U.S. Mission to
         International Organizations in Vienna.




                                           14
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
        UNVIE believes that its management controls program is limited to those controls the
JMO assures. However, the JMO is the administrative and management service provider, and it
has no relationship to UNVIE’s political, economic, and public affairs functions. Without a
controls program for these areas, UNVIE does not have assurance that all its operations are free
from waste, fraud, abuse, or mismanagement. The Department’s management controls program
applies to all program, operational, and financial areas, according to 2 FAM 021.1 d. Further, 2
FAM 021.1 c. (1) requires Department managers to evaluate systems on an ongoing basis.

Recommendation 5: The U.S. Mission to the International Organizations in Vienna should
designate a management controls coordinator to undertake a risk assessment of all its assessable
units, to formulate the basis for an assertion on management controls, and to implement a
management controls program. (Action: UNVIE)

       The Chief of Mission disclaimed responsibility for UNVIE’s assertion on the annual
management control statement of assurance, dated July 14, 2011. His statement asserted that the
Chief of Mission for Embassy Vienna has final authority and responsibility for assuring that
UNVIE’s management control objectives are achieved. However, under 2 FAM 024 d., chiefs of
mission are required to provide an assurance statement concerning the effectiveness of internal
controls in their respective operations such as the use of travel funds or overtime.

Recommendation 6: The U.S. Mission to the International Organizations in Vienna should
reissue its 2011 annual management control statement of assurance and include the Chief of
Mission’s statement, based on risk assessments covering the entire mission. (Action: UNVIE)




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The U.S. Mission to International Organizations in Vienna should
implement a plan to provide first- and second-tour officers and specialists with regular mentoring
sessions and well-defined opportunities to gain experience with multilateral relations, support
official visits, speak in public fora, produce written reports, and participate in representational
events. (Action: UNVIE)

Recommendation 2: The Bureau of International Organization Affairs, in coordination with
the Bureau of Human Resources, should approve the U.S. Mission to International Organizations
in Vienna’s proposed change in grade and alignment of two positions in the mission’s
International Atomic Energy Agency and arms control sections. (Action: IO, in coordination
with DGHR)

Recommendation 3: The U.S. Mission to International Organizations in Vienna should issue
an administrative notice requiring each section to establish, maintain, and annually retire official
records, including email messages that qualify as records, and implement a tracking system to
verify that employees are managing and retiring electronic records. (Action: UNVIE)

Recommendation 4: The U.S. Mission to International Organizations in Vienna should
implement a system to promote employee compliance with mission guidance on using the State
Messaging and Archive Retrieval Toolset software system to archive email and other
correspondence. (Action: UNVIE)

Recommendation 5: The U.S. Mission to the International Organizations in Vienna should
designate a management controls coordinator to undertake a risk assessment of all its assessable
units, to formulate the basis for an assertion on management controls, and to implement a
management controls program. (Action: UNVIE)

Recommendation 6: The U.S. Mission to the International Organizations in Vienna should
reissue its 2011 annual management control statement of assurance and include the Chief of
Mission’s statement, based on risk assessments covering the entire mission. (Action: UNVIE)




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
       Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any
subsequent OIG inspection or on-site compliance review will assess the mission’s progress in
implementing the informal recommendations.

Informal Recommendation 1: The U.S. Mission to International Organizations in Vienna
should provide a justification to the Bureau of International Organization Affairs, the Bureau of
International Security and Nonproliferation, and other bureaus for the mission to receive
increased budgetary resources annually, including increased representation and travel funds.

Informal Recommendation 2: The U.S. Mission to International Organizations in Vienna
should work with the joint management office at Tri-Mission Vienna to change the supervision
of the protocol assistant from the Ambassador to the Ambassador’s office management
specialist.

Informal Recommendation 3: The U.S. Mission to International Organizations in Vienna
should consolidate and update its mission contacts databases.

Informal Recommendation 4: The U.S. Mission to International Organizations in Vienna
should assess its workload, once ongoing staffing adjustments have been completed, and
incorporate its determination about staffing needs into its next strategic planning request.

Informal Recommendation 5: The U.S. Mission to International Organizations in Vienna
should assess in late 2012 whether its present organizational structure continues to serve the
mission’s evolving needs.

Informal Recommendation 6: The U.S. Mission to International Organizations in Vienna
should phase in, over 3 years, the transfer of the multilateral Nuclear Suppliers Group
responsibilities from the International Atomic Energy Agency section to its arms control section.

Informal Recommendation 7: The U.S. Mission to International Organizations in Vienna
should expand its reporting on nuclear security issues.

Informal Recommendation 8: The U.S. Mission to International Organizations in Vienna
should share information with the U.S. Mission to the Organization for Security and Cooperation
in Europe on the activities of the UN Office on Drugs and Crime and the Organization for
Security and Cooperation in Europe in the areas of crime, corruption, and drugs.

Informal Recommendation 9: The U.S. Mission to International Organizations in Vienna
should make a case to the Bureau of Educational and Cultural Affairs and the Bureau of
International Organization Affairs to double the allotment of International Visitor Leadership
Program grants available to multilateral missions.

Informal Recommendation 10: The U.S. Mission to International Organizations in Vienna
should use the Voluntary Visitor program to supplement its International Visitor Leadership
Program.
                                              17
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 11: The U.S. Mission to International Organizations in Vienna
should consult at least quarterly with Embassy Vienna and the U.S. Mission to the Organization
for Security and Cooperation in Europe to identify areas where collaboration, including the use
and marketing of social media, could expand the reach of U.S. public diplomacy.

Informal Recommendation 12: The U.S. Mission to International Organizations in Vienna
should have the Consolidated Overseas Accountability Support Toolbox installed on the
computers of those officers with budget and accounting responsibilities.

Informal Recommendation 13: The U.S. Mission to International Organizations in Vienna
should work with Embassy Vienna to introduce the embassy’s locally employed staff with
responsibility for management support to the officers of the U.S. Mission to International
Organizations in Vienna.




                                         18
                             SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                              Name     Arrival Date
Ambassador                                              Glyn Davies           08/09
Deputy Chief of Mission                                Robert Wood            04/10
Chiefs of Sections:
  International Atomic Energy Agency Section           Sharon White          08/11
  Arms Control Section                                  John Godfrey         08/10
  UN Affairs Section                                     David Bame          09/11
  Public Affairs                               Jennifer Hall-Godfrey         05/10
  Joint Management Officer                        Margaret Uyehara           08/10
  Regional Security Officer                       Mary-Jo Swinimer           03/11




                                      19
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
CTBTO           Comprehensive Nuclear Test Ban Treaty Organization
DCM             Deputy chief of mission
Department      U.S. Department of State
HCOC            Hague Code of Conduct
IAEA            International Atomic Energy Agency
IVLP            International Visitor Leadership Program
JMO             Joint management office
LE              Locally employed
MSRP            Mission Strategic and Resource Plan
OOSA            Office of Outer Space Affairs
UNODC           UN Office on Drugs and Crime
UNVIE           U.S. Mission to International Organizations in Vienna
USOSCE          U.S. Mission to the Organization for Security and Cooperation in
                Europe




                            20
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
